0
No.

A-

«

IN THE
SUPREME COURT OF THE UNITED STATES

JAMAIL D. HAIRSTON

— PETITIONER

(Your Name)
vs.

COMMONWEALTH

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
)•

MASSACHUSETTS COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Jamail D. Hairston
(Your Name)

30 Administration Road
(Address)

Bridgewater, MA 02324
(City, State, Zip Code)

(617)—441-9111
(Phone Number)
.V1*;

LIST OF PARTIES
i

[/] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

1. Commonwealth v. Hairston 185 CR 004437-A, 004437-B
Judgment entered 3/14/19
2. Commonwealth v. Hairston 1983 CR 00048 Judgment Entered 2/16/21
3. Commonwealth v. Hairston FAR-28124
Judgment Entered 4/15/21

. *.

QUESTION(S) PRESENTED

DID THE APPEALS COURT ERR IN HOLDING THAT NO SUBSTANTIAL RISK OF
A MISCARRIAGE OF JUSTICE RESULTED FROM OFFICER PAGAN'S ERRONEOUS
TESTIMONY ABOUT HAIRSTON'S POST-MIRANDA INVOCATION OF HIS RIGHT TO
REMAIN SILENT BY INAPPROPRIATELY RELYING ON EVIDENCE THAT PERTAINED
TO CHARGES FOR WHICH HAIRSTON WAS FOUND NOT GUILTY

TABLE OF AUTHORITIES CITED

CASES
UNITED STATES SUPREME COURT:
Doyle v. Ohio

PAGE NUMBER

426 U.S. 610 (1976)

Federal Cases:
Chapman v. United States, 547 F.2d 1240 (5th Cir. 1977)
United States v. Edwards, 576 F.2d 1152 (5th Cir. 1978)
United States v. Taylor, 985 F.2d 3
(1st Cir. 1993)
Williams v. Zahradnick, 632 F.2d 353 (4th Cir. 1980)
Massachusetts Cases:
Abraham v. Woburn, 383 Mass. 724 (1981)
Commonwealth v. Chase, 70 Mass. App. Ct. 826 (2007)
Commonwealth v. Connolly., 454 Mass. 379 (2001)
Commonwealth,v>
Commonwealth v.
^uiiimonweaJith v.
Commonwealth v.
Commonwealth v.
Commonwealth v.
Commonwealth v.

DePace, 433 Mass. 379 (2001)
Egar^o,. ,A26 Mass 48 (1997)
Ewing, 67 Mass. App. Ct. 531.(2006)
Isabelle, 444 Mass. 416 (2005)
Mahdi, 388 Mass. 679 (1983)
Peixoto, 430 Mass. 654 (2000)
Steed, 95 Mass. App. Ct. 463 (2019)

Commonwealth v. Sugrue > 34 Mass. App. Ct. 172 (1993)

OTHER

4

8
8
5
8

7
4, 5
7
5, 7
7
5
7
4, 5, 6 8
5
8
7

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

.4

REASONS FOR GRANTING THE WRIT

9
10

CONCLUSION

INDEX TO APPENDICES

APPENDIX A : Memorandum and Order pursuant to Rule 23 - 2020-P-0512

APPENDIX B: FAR-28124: Notice of FAR Denial

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
M For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__ to the petition and is
[*] reported at 99 Mass Am Ct 1110 (2021 ^ Buie 2ftnr;
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the Supreme Judicial. Court
B
to the petition and is
appears at Appendix
4S7 Mass . 1104 f 70?1
; or,
[xj reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1.

court

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: ____________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including _
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

(X] For cases from state courts:
The date on which the highest state court decided my case was
- A copy of that decision appears at Appendix_§____

4/15/21

[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

* Page 02 *

* Page 03 *
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

CONSTITUTIONAL PROVISIONS:
Fifth Amendment

4

Fourteenth Amendment

4

MASSACHUSETTS DECLARATION OF RIGHTS
Article 12

4

• *r

i

STATEMENT OF THE CASE
Officer Pagan testified in detail about his attempt to question
Hairston about the sexual assault accusation and of the defendant's
exercise of his constitutional right to be silent. See Fifth and
Fourteenth Amendments, United States Constitution; article 12,
Massachusetts Declaration of Rights. Pagan testified that after
Reyes's report, he pulled Hairston from his work assignment, placed
him in handcuffs, and brought him to the interrogation room with his
supervisor. Hairston asked what was going on, and Pagan informed him
it was a PREA investigation and advised Hairston of this Miranda
rights. Pagan twice remarked that he deemed Hairston to be a
^perpetrator" (Pagan first testifed that once a report is made he
will "go and get the perpetrator" to "lock him up." When defense
counsel referred to Hairston as having been a "suspect" in Pagan's
investigation Pagan corrected him, saying "Once he is the perpetrator?
Is this what you're trying to ask?"), at this time. Pagan testified
that Hairston then "refused to answer any questions." (The exchange
was as follows: Q. AS part of the investigation, did you speak with
other patients or inmates in that particular area? A.Yes, I did.
Q, And who did you speak to other than Mr. Reyes? A. I also spoke with
the Defendant, which he refused to answer any questions.).
As the Commonwealth conceded and the Appeals Court agreed, Officer
Pagan's testimony that Hairston "refused to answer any questions"
"after being inf ormed of "hlV "Miranda rights" in""a custodial interrog­
ation was an imporoper comment on his invocation of his constitutional
right to remain silent. See Commonwealth v. Mahdi. 388 Mass. 679,
694-698 (1983). "Assertion of the right to remain silent is highly
protected under Federal and State constitutional law." Commonwealth
v. Chase. 70 Mass. App. Ct. 826, 830-831 (2007). A defendant may not
be impeached with evidence of his post-Miranda silence, nor may it
be used as evidence of his guilt, without violating the due process
clauses of the Fourteenth Amendment to the Unit-ed States Constitution
and of article 12 of the Massachusetts Declaration
of Rights. See
J
Dovle v. Ohio. 426 U.S. 610, 619 (1976). "At the base of the
jurisprudence is the due process protection that a defendant, when
in the hands of the police, should be able to invoke core
constitutional rights without fear of making implied or adoptive
Page 04 *

* .Page 05 *
admissions* or demonstrating consciousness of guilt." Chase, 70 Hass.
App. Ct. at 831 quoting Commonwealth v. Peixoto, 430 Mass. 654, 658659 (2000); see also United States v. Taylor, 985 F.2d 3,. 7 (1st cir)
Cert, denied, 508 U.S. 944 (1993). Hairston's silence was
impermissibly used as evidence of his guilt through the implication
that where he "refused to answer any questions" despite being
provided the opportunity to explain or to deny what he had been
informed was a PREA allegation indicated a consciousness of guilt.
See Commonwealth v. DePace 433 Mass 379, 382 (2001). As the Appeals
Court agreed, with was error.
Where trial counsel did not object to the testimony, the Appeals
Court reviewed the error to determine if a substantail risk of
miscarriage of justice resulted, whether there is a serious doubt if
the result of the trial might have been different had the error not
been made. See Commonwealth v. Ewing, 67 Mass App Ct 531, 544 (2006).
Massachusetts4 appellate courts have applied the factors set forth
in Commonwealth v. Mahdi, 388 Mass. 679 (1983), to determine whether
an unpreserved Doyle error created a substantial rist of a miscarriage
of justice, including (1) the relationship between the evidence and
the premise of the defense; (2) who introduced the issue at trial;
(3) the weight or quantum of evidence of guilt; (4) the frequency of
the reference; and.(5) the availability or effect of curative
instructions. See Ewing, 67 Maas ;A.pp Ct at 544-545.
The defense at trial was that.Reyes fabricated the allegations
from whole cloth. Defense counsel^cross-examined each witness about
the numerous inconsistencies in Reyes's description of the alleged
assaults and his possible motivation to use the accusations to his
benefit. The video evidence offered by the Commonwealth not only
failed to substantiate the allegations but often flatly contradicted
them. The serious deficiencies in the Commonwealth's evidence are
demonstrated by the verdicts. The court allowed a motion for required
finding of not guilty on the charge of open and gross lewdness,
entered acquittals on two counts of indecent assault and battery, and
on the one remaining charge returned a verdict of guilty of a lesser
included offense, striking the sexual component, showing that it did
not credit the entirety of Reyes's testimony.

* Page 06 *
Despite the clear message in the required finding of not guilty,
two acquittals, adn reduced charge striking the sexual component,
the Appeals Court nevertheless characterized the evidence of the
defendant’s guilt as "strong:” To support this conclusion, the Court
cited to several pieces of evidence that were irrelevant to the sole
offense for which Hairston was convicted, count 2, which pertained
to the allegation that Hairston reached into Reyes’s room and touched
or patted his buttocks, The Court cited for support the first
complaint witness’s testimony, although that pertained solely to the
allegation that Hairston put his hands down Reyes's pants on June
18, count 4 of the indictments for which the trial court's verdict
was not guilty. It also cited to the evidence that Reyes had a
bruise on his arm in support of its conclusion, despite Reyes's
specific testimony that he sustained that bruise not during the
touching or patting of his buttocks of count 2 but rather during the
events comprising count 4 where he alleged Hairston pinned him to
the ground. The court also cited favorably to Gaughan's testimony
that he saw Hairston wrestling with someone in Reyes's room for its
finding that the evidence on count 2 was "strong", although again
Gaughan's claimed obervations pertained to the allegations of count
4. Gaughan's testimony is of additionally questionable value where
Officer Pagan checked the security video to corroborate his claim
that he walked past and looked into the room during this event, but
found no such footage of Gaughan in: the vicinity at that time.- None
of this evidence relating to an allegation of conduct for which the
court acquitted the defendant lends strength to the quantum of
evidence against the defendant on count 2, the only conviction before
the court on appeal.
Where the defense was innocence the improper introduction of
evidence that served no purpose other than to imply that Hairston
harbored a consciousness of guilt and had something to hide by
refusing to answer the questions of Officer Pagan and his supervising
officer was a "strike at the jugular" of the defense. See Mahdi,
388 Mass, at 696.
The evidence was elicted by the prosecution on direct examination
where the prosecutor made the broad inquiry asking; which inmates

* Page 07 *
aside from Reyes Officer Pagan spoke to in his investigation.
Although Officer Pagan's reference to Hairston's refusal to answer
his questions was singular, it necessitated defense counsel's
revisiting of the topic on cross-examination to establish the
circumstances of the encounter to show that it was a custodial
interrogation to which the defendant had a constitutional right to
remain silent. Contrast Commonwealth v. Isabelle. 444 Mass. 416, 418422 (2005) (one reference to defendant's request for her attorney
elicited by prosecutor, which.was struck from the record and jury
instructed to disregard the testimony).
^
Defense counsel neither objected to the improper testimony nor
moved to strike.it. See Commonwealth v. Egardo, 426 Mass. 48, 53
(1997) (ineffective assistance of counsel to fail to object to
Commonwealth's use of defendant's post-arrest silence against him).
The presumption that a judge in a jury-waive trial is prsumed to
have correctly instructed himself on the law is inapplicable here
where defense counsel made no objection nor a request that the
problematic evidence be considered in a certain manner or limt its
scope. See e.g.tCommonwealth v. Sugrue, 34 Mass App Ct 172 174
(1993) (reversing conviction from jury-waived trial upon finding
trial judge's assurances of limited consideration of improper fresh
complaint evidence "insufficient to. ameliorate the risk that his
decision may have been affected by this improper evidence"). "The
purpose of requiring an objection is to afford the trial judge an
opportunity to act promptly to remove from the [fact finder's]
consideration evidence which has not place in the trial." Abraham
v. Woburn. 383 Mass. 724, 726 n.l (1981). Without an objection, the
court did not consider a curative instruction. See .DePace. 433 Mass
at 385 ("Because there was not curative instruction, the jury were
permitted to draw an iference of guilt from the defendant's exercise
of his right to counsel, which stood out as the only 'inculpatory'
statement he made after the killing). Contrast Connolly. 454 Mass,
at 828-829 (judge immediately and forcefully instructed the jury that
they could not consider the defendant's exercise of his right to
remain silent and counsel acquiesced to the instruction given). "If
a timely objection is not made, the evidence is properly admitted,

I

* Page 08 *
and the fact finder is entitled to give it such probative effect
as it deems appropriate." Commonwealth v. Steed. 95 Mass App Ct. 463,
469 (2019).
"The nature of a Doyle error is so egregious that reversal is the
norm ) not the exception." Mahdi, 388 Mass, at 698, citing Williams
y. Zahradnick, 632 F.2d, 363 (4th Cir. 1980); United States v.
Edwards, 576 F.2d 1152, 1155 (5th Cir. 1978); Chapman v. United
States, 547 F.2d 1240, 1250 (5th Cir. 1977). The error created a
substantial risk of a miscarriage of justice where there is a
serious doubt whether the result of the trial might have been
different had the error not been made.

l

i

t
i

i

i

* Page 09 *
REASONS FOR GRANTING THE PETITION
A Writ of Certiorari is appropriate where the Appeals Court
agreed that Officer Pagan's Testimony that Hairston "refused to
answer any questions" after being informed of his Miranda Rights was
an improper comment on the defendant's invocation of his federal and
state constitutional rights to remain silent, yet it failed to
acknowledge that errors of this type are considered so egregious
that reversal is the norm rather than the exception. The Appeals
Court held that no substantial risk of miscarriage of justice
resulted from the error by declaraing that "the evidence of guilt
was strong" based on its reliance on evidence pertinent to indict­
ments on which the trial judge acting as fact-finder in a bench trial
returned verdicts of not guilty.

\

* Page 10 *

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

~x,i/ y

